q

tv

IN THE

SS :

ill

L) £

SUPREME COURT OF THE UNITED STATES

IN RE: RICHARD DECARO - PETITIONER

PETITION FOR AN ORIGINAL EXTRAORDINARY WRIT OF HABEAS CORPUS
PURSUANT TO 28 U.S.C. §1651(a) OF THE ALL WRITS ACT

filed
JAN 2 8 2021

Richard DeCaro, 24317-044
Federal Correctional Institution
Post Office Box 6000
Florence, Colorado 81226

r
s’'l

QUESTIONS PRESENTED
1.

Whether the Ex Post Facto Clause is violated where petitioner was

sentenced to the amended statute, first degree murder, mandatory life, rather
than the statute in effect at the time of the alleged offense, second degree
murder, any term of years or for life; where this Court said the Guideline
range is 168-210 months, leaving petitioner's legal sentence terminated?
2.

Whether petitioner's

sentence of first degree murder violates the

Double Jeopardy Clause where the federal statute requires a "violation of the
laws of any state" as an element of the offense; causing the federal jury to
re-adjudicate the identical state law petitioner was found not guilty of
violating by the state jury?
3. Whether counsel provided ineffective assistance of counsel, guaranteed
by

the

Sixth Amendment,

for not ensuring petitioner was constitutionally

sentenced?

i

r
■fri

'N

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES
State of Missouri v. Richard DeCaro, No. 92-650; Not guilty verdict on all
counts entered September 14, 1994.

ii

TABLE OF CONTENTS
Authorities .Cited

iv

Opinion Below

1

Jurisdiction

1

Constitutional and Statutory Provisions Involved

1

Statement of the Case

3

Reasons for Granting the Writ
1. Petitioner's Sentence Violates the Ex Post Facto Clause

4

2. Petitioner's Sentence Violates the Double Jeopardy Clause

6

3. Ineffective Assistance of Counsel

9

Relief Sought

9

Supreme Court Rule 20.1

10

Conclusion

11

INDEX TO APPENDICES
Appendix A: Opinion of the United States Court of Appeals
Appendix B: Presentence Report (PSR)
Appendix C: Sentencing Transcript
Appendix D: State Verdict and Instructions
Appendix E: Federal Jury Instruction 31
Appendix F: Objection to Instruction 31
Appendix G: Eighth Circuit Judge Kelly's Conclusion

iii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Calder v. Bull, 3 U.S. (3 Dali.) 386 (1798)

4

Ex Parte Fahey, 332 U.S. 258 (1947)

10

Ex Parte Yerger, 8 Wall. 85, 75 U.S. 85 (1868)

10

Felker v. Turpin, 518 U.S. 651 (1996)

10

Harris v. Nelson, 394 U.S. 286 (1969)

10

Jones v. United States, 526 U.S. 227 (1999)

8

Koon v. United States, 518 U.S. 81 (1996)

9

Lewis v. United States, 523 U.S. 155 (1998)

5

Lindsey v. Washington, 301 U.S. 397 (1937)

5

Peugh v. United States, 569 U.S. 530 (2013)

6

State of Missouri v. Richard DeCaro, No. 92-650 (1994)

6

Strickland v. Washington, 460 U.S. 668 (1984)
United States v. Basile, 109 F.3d 1304 (8th Cir. 1997)

10
1, 7, 8

United States v. Delpit, 94 F.3d 1134 (8th Cir. 1996)

8

United States v. Young, 753 F.3d 757 (8th Cir. 2014) .

8

STATUTES
18 U.S.C. §1958

1, 2, 4, 5, 7, 8

U.S.S.G. S1B1.11

2, 6

U.S.S.G. §2A1.1

2, 6

U.S.S.G. §2A1.2

2

U.S.S.G. §2E1.4

2, 6, 7
2, 5

U.S.S.G. Amendment 449

iv

tv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR AN EXTRAORDINARY WRIT
Petitioner respectfully prays that this extraordinary writ be issued.
OPINION BELOW
The opinion of the United States Court of Appeals for the Eighth Circuit
appears at Appendix A to the petition and is reported at United States v.
Basile, 109 F.3d 1304 (8th Cir. 1997).
JURISDICTION
The

jurisdiction

of

the

Court

is

invoked

under Article III of

the

Constitution of the United States, 28 U.S.C. §1251 and U.S. Const • > Arndt. 11.

;

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment: "No person shall be...subject for the same offense to be
twice put in jeopardy of life or limb • • • nor be deprived of life, liberty, or
property, without due process of law • • • ««
Sixth Amendment: "In all criminal prosecutions,

the accused shall • • • be

informed of the nature and cause of the accusation • • • and to have Assistance of
Counsel for his defense."
Seventh Amendment:

" • • • no fact tried by a jury, shall be otherwise re-

examined in any Court of the United States • • • ••
Eighth Amendment: " • • • nor cruel and unusual punishments inflicted."
Article 1, §9: "No...ex post facto law shall be passed."
18

U.S.C.

§1958(a)

(1988)

"Whoever

travels

in

or

causes

another

(including the intended victim) to travel in interstate or foreign commerce,
or uses or causes another (including the intended victim) to use the mail or
any facility of interstate or foreign commerce, with intent that a murder be
committed in violation of
consideration for

the

the laws of any State or the United States as

receipt

of,

or
1.

as

consideration

for a promise of

agreement to pay, anything of pecuniary value, or who conspires to do so,
shall be fined under this title or imprisoned for not more than ten years, or
both;

and if personal injury results,

shall be fined under this title or

imprisoned for not more than twenty years, or both; and it death results,
shall be subject to imprisonment for any term of years or for life, or shall
be fined not more than $50,000, or both."
§1958(a) (Amended 1994 Pub. L. 103-322, §60003(a)(11)): Substituted "and
if death results, shall be punished by death or life imprisonment, or shall be
fined not more than $250,000. or both" for "and if death results, shall be
subject to imprisonment for any term of years or for life, or shall be fined
not more than $50,000, or both."
U.S.S.G. §1B1.11 If the manual in effect at the time of sentencing causes
a violation of the Ex Post Facto Clause, the edition of the Guidelines in
effect on the date the alleged offense occurred should be used.
U.S.S.G. §2A1.1 First Degree Murder - Base Offense Level 43.
U.S.S.G. §2A1.2 Second Degree Murder - Base Offense Level 33.
U.S.S.G.

§2E1.4

Use

of

Interstate

Commerce

Facilities

During

the

Commission of Murder-For-Hire (a) Base Offense Level (Apply the greater): (1)
32; or (2)

the offense level applicable to the underlying unlawful conduct.

Statutory Provision Application Note 1:
state law,

"If the underlying conduct violates

the offense level corresponding

to

the most analogous federal

offense is to be used."
U.S.S.G.
amended

by

Amendment 449

deleting

"

• it

(effective date,
The

November 1,

maximum term of

§2E1.4 is

imprisonment authorized by

statute ranges from five years to life imprisonment."

2.

1992):

STATEMENT OF THE CASE
March 6, 1992, petitioner's wife, Elizabeth DeCaro, was murdered in our
family's home by an intruder. The murderer, Daniel Basile, in his own words
believed that no one would be home; he said, "I went to the house knowing no
one would be home. Things went wrong and I did what I had to do, it was either
her or me and I wasn't going back to prison."
My entire family was going out of town. We were planning a trip to the
lake. March 4, 1992, Elizabeth decided, since the weather turned cold, not to
go and to spend the weekend with her family. She decided that I should take
the kids for a "daddy's weekend." Early morning on March 7th, the police
notified me that Elizabeth had been murdered in our home. I did everything
possible to help the police determine what happen.
March 7, 1992, the police, with the knowledge that the only one other
than family that knew the entire family would be out of town, detained Craig

J

Wells an employee at the automotive shop I managed; Wells was to be filling-in
for me on March 6th. Wells was interviewed for 18 hours, after which he was
threaten with the charge of first degree murder if he did not go along with
the prosecutor's theory. Wells received total immunity to go along.
March 12, 1992, the murderer was caught with the vehicle he stole as a
get-a-car the day he murdered Elizabeth; he was arrested by the state of
Missouri. March 13, 1992, Mr. DeCaro was arrested.
April 1994, Basile was convicted of first degree murder and given the
death penalty. September 14, 1994, Mr. DeCaro was found not guilty of first
degree murder, second degree murder (both included murder for hire), aiding
and encouraging, and aiding and encouraging a burglary by the state death
penalty qualified jury; I was immediately released.

3.

»s

•V

May 30, 1995, petitioner was rearrested by the federal government and
made a 250,000 dollar bond the next day. I was offered a 5 year plea deal but
refused because I did not commit a crime.
The federal government offered to take Basile off of death row if he
would testify to their theory; he refused and was made a co-defendant. The
federal jury was allowed to know Basile was on. death row but not allowed to
know 1 was found innocent in the state trial. March 7, 1996, I was convicted
in federal court on all counts.
June 21,

1996,

petitioner was sentenced to a mandatory life sentence

under the amended statute in violation of the ex post facto clause; which is
the subject of this petition. I have served 365-370 months with good time and
clear institution conduct, well over that of the legal sentence.
REASONS FOR GRANTING THE WRIT
1. The Ex Post Facto Clause was violated because petitioner was sentenced
to the amended statute, first degree murder, mandatory life, rather than the
statute in effect at the time of the alleged offense, second degree murder,
any term of years or for life.
Petitioner's ex post facto violation is so cut and dry, the facts are
clear,

but sadly no other court has been willing to rule on the merits;

leaving only this Court to correct the error. In light of the facts presented
below, petitioner's continual incarceration violates the Eighth Amendment.
The violation is rooted in this Court's third point of constitutional law
outlined in Calder v.
stated,

"Every

law

Bull, 3 U.S. (3 Dali.) 386 (1798); where the Court

that

changes

the

punishment,

and

inflicts

a

greater

punishment, than the law annexed to the crime, when committed."
The

district

petitioner

to

the

court violated
1994

amended

the

Ex Post Facto Clause by sentencing

18 U.S.C.

§1958(a)

statute,

first degree

murder, mandatory life, rather than the pre-amended statute in effect at the
4.

time of the alleged offense, second degree murder, any term of years or for
life. This Court made clear that "any term of years or for life" is second
degree

murder and

a

person with

zero

criminal

history

points,

such

as

petitioner, would be subjected to a Guideline range of 168-210 months. Id.
Lewis v. United States, 523 U.S. 155 (1998).
The ex post facto violation is evident on the cover of petitioner's
Presentence

Report

(PSR).

The

PSR

listed

the

1994

amended

statutes,

punishments, and fines for all three statutes petitioner was sentenced to;
Counts 1, 3-7 have a statutory maximum of five years, I have served over 30
years so at issue is Count 2. The statutory punishment for Count 2 is listed
as Life Imprisonment/$250,000.00 fine;

which has always

been first degree

murder with no statute of limitations (see PSR page 1; Appendix B).
The statute in effect at the time of the alleged offense, the pre-amended
§1958 statute, authorizes a range of punishment of any term of years or for
life/$50,000.00 fine;

which is

second degree murder. The statute's 5 year

statute of limitations is further evidence that Congress intended to limit the
punishment to second degree murder.
In Lindsey v. Washington, 301 U.S. 397 (1937) this Court said when there
is a range of punishment up to a maximum of 15 years annexed to a criminal law
at the time of the alleged offense and the law is later amended to a mandatory
15 years the Ex Post Facto Clause is violated.
Petitioner's ex post facto violation is similar as that in Lindsey. March
6, 1992, the day of petitioner's alleged offense, the punishment was second
degree murder, any term of years or for life (5 years to life; see U.S.S.G.
Amendment 449). Petitioner was instead sentenced to the 1994 amended statute
that required first degree murder, a mandatory life sentence, violating the Ex
Post Facto Clause.

5.

•V

Further evidence the Ex Post Facto Clause was violated is the fact that
the 1995 Guideline manual was used (see PSR page 6, 1(22; Appendix B). The
Guidelines made clear that if the manual in effect at the time of sentencing
causes an ex post facto violation, the edition of the Guidelines manual in
effect on the date the alleged offense occurred is: used (U.S.S.G. §1B1.11).
This Court stated, "The Ex Post Facto Clause prohibits federal courts
from adopting new guidelines for sentencing where the new guidelines create
'significant risk' of a higher sentence." Jhl. Peugh v. United States, 569 U.S.
530 (2013).
Because I went through the state trial and was sentenced in federal court
over 4 years later, it is my belief the Probation Officer in preparing the PSR
simply made an error. Rather than following the correct Guideline, U.S.S.G.
§2E1.4, he jumped straight to U.S.S.G. §2A1.1 which has always been for first
degree murder (see PSR page 6, 124; Appendix B). If he would have started with
52E1.4, he would have found U.S.S.G. Amendment 449 which states the correct
range of punishment was 5 years to life. Further evidence proves the ex post
facto violation. The maximum fines are listed as $250,000.00 instead of
$50,000.00 (see PSR page 12, 183).
Lastly, the sentencing judge did not make a statement when pronouncing
petitioner's sentence other than adopting the recommendations in the PSR (see
general, Sentencing Transcript; Appendix C).
2.

Petitioner's

sentence of first degree murder violates the Double

Jeopardy Clause because the federal statute requires a "violation of the laws
of any state" as an element of the offense. This caused the federal jury to
re-adjudicate the identical state law petitioner was found not guilty of
violating by the state jury.
As stated earlier, petitioner was found not guilty in State of Missouri
v. Richard DeCaro, No. 92-650 (1994) of first degree murder, second degree
6.

■v

murder (both included murder for hire), aiding and encouraging, and aiding and
encouraging a burglary (see State Verdict and Instructions; Appendix D).
If

U.S.S.G.

sentence,
§2E1.4

§2E1.4

would

have

been used

to

determine

petitioner's

the double jeopardy violation could have been avoided. U.S.S.G.

Statutory

Provision Application Note 1

conduct violates

state

law,

the

states,

"If the underlying

offense level corresponding to

the most

analogous federal offense is to be used." At the very least, since petitioner
was found not guilty of the state laws by the state jury, it should have
raised several red flags not only to counsel but to the court as well.
Because the federal statute,

18 U.S.C. §1958, requires a "violation of

the laws of any state" as an essential element, the district court instructed
the

federal

jury

to

re-adjudicate

the same Missouri first degree murder

statute

petitioner

was found not guilty of violating by the state juryf

causing

violations

of the Fifth Amendment and the spirit of

Amendment.

Although

civil

in nature,

the

Seventh Amendment

the Seventh
very clearly

reflects the Fifth Amendment and is no less important; ”[n]o fact tried by a
jury shall be otherwise re-examined in any Court of the United States • • • " (sed
Jury Instruction 31; Appendix E).
Petitioner's

counsel

objected

to

instruction

31,

but

during

direct

review, the Eighth Circuit Court of Appeals mistakenly believed (and based its
entire legal framework) that we did not object to the instruction. The court
stated,
31,

"The government included in its addendum a copy of jury instruction

which was

defendant
whether,

given without

having

raised

a

objection

challenge

to

to

the

the

in keeping with the instruction • • •

legal

legal

elements • • •

elements,

we

Neither
consider

the interstate transactions at

issue were a part of and in furtherance of the murder-for-hire scheme." Id.
Basile 109 F.3d 1311 (see page 8; Appendix A).

7.

caused a variance in my indictment because it did not charge murder; if it
had, I could have plead my prior acquittal.
3. Counsel Provided Ineffective Assistance of Counsel.
Counsel fell well below that which the Sixth Amendment demands. Counsel
should

have brought

the above facts

to the court's attention prior to

sentencing or at least appealed the facts on direct review.
Seven days prior to being sentenced, this Court ruled in favor of a 3
point sentencing reduction for successive prosecutions and being found not
guilty in the state trial. Id. Koon v. United States, 518 U.S. 81 (1996). My
attorneys should have brought this to the sentencing court's attention and I
should

have received the same 3 point reduction;

my sentence would be

terminated and I would not have had to carry the weight of dying in prison.
Prior to trial, during a two minute phone call, my attorney told me the
government offered me five years to plead guilty. I refused because I did not
commit a crime and I believe it would have been perjury to plead guilty. All
he said was, "good why should you, you were just found innocent and I want to
go up against this prosecutor; I think I can win.” He should have explained
the process, then I could have made an educated decision.
Post Conviction Counsel didn't argue any of the above facts or even
ineffective assistance of counsel.
RELIEF SOUGHT
Petitioner respectfully request the vacation of his unconstitutional
sentence and remanded to district court for resentencing; ultimately being
resentenced to time served.

9.

SUPREME COURT RULE 20.1
1. The Court's Appellate Jurisdiction.
Petitioner has presented the Court with an original action in the form of
an Extraordinary Writ of Habeas Corpus.
2. The Exceptional Circumstances of this Case Warrant the Exercise of
this Court's Jurisdictional Discretionary Powers.
This Court's power to grant an extraordinary writ
reserved

for

exceptional

cases

is very broad but

in which "appeal is a clearly

inadequate

remedy." Ex parte Fahey, 332 U.S. 258, 260 (1947). The Court has the authority
to entertain original habeas petitions. See Felker v. Turpin, 518 U.S. 651,
660 (1996).
Petitioner's last hope for review of his unconstitutional sentence lies
with this Honorable Court. His case presents exceptional circumstances that
warrant the exercise of this Court's discretionary powers because no other
court has been willing to entertain the facts outlined in this petition.
Petitioner has served 371 months with good time on an illegally imposed
sentenced where this Court made clear the legal sentence is 168-210 months.
Petitioner's constitutional claims have never been adjudicated and not only
clear and convincing,

they are beyond a reasonable doubt; rooted in this

Court's jurisprudence.
"The great writ of habeas corpus has been for centuries esteemed the best
and only sufficient defence of personal freedom." Ex parte Yerger, 8 Wall. 85,
95, 75 U.S. 85, 95 (1868). ”[Fundamental fairness is the central concern of
the writ

of habeas corpus."

Strickland v. Washington,

466 U.S.

668,

697

(1984). In Harris v. Nelson, 394 U.S. 286, 292 (1969), the Court stated the
following regarding the Great Writ:

10.

.

4

There is no higher duty of a court, under our constitutional
system, than the careful processing and adjudication of petitions
for writs of habeas corpus, for it is in such proceedings that a
person in custody charges that error, neglect, or evil purpose has
resulted in his unlawful confinement and that he is deprived of
his freedom contrary to law. This Court has insistently said that
the power of the federal courts to conduct inquiry in habeas
corpus is equal to the responsibility which the writ involves: The
language of Congress, the history of the writ, the decisions of
this Court, all make clear that the power of inquiry on federal
habeas corpus is plenary (citation omitted).
Petitioner's case presents the exceptional circumstances for which the
Great Writ was intended to apply.
3. Adequate Relief Cannot Be Obtained in Any Other Form or From Any Other
Court.
Petitioner has tried to get the lower courts to make a ruling on the
merits of his Constitutional claims, but all attempts have fallen on deaf
ears;

with no adjudication of his claims.

It is inconceivable that these

courts would allow me to die in prison unconstitutionally without even making
an attempt to address my claims.
CONCLUSION
For

the

forgoing

extraordinary

circumstances

and

to

avoid

a

total

miscarriage of justice, petitioner prays this Honorable Court issues the writ
and remands to the district court for resentencing to time served.
Respectfully submitted on this day of

/Th^i /7

Richard DeCaro

11.

, 2021.

